September 29, 1999


JOHN A. RAPP
VICE PRESIDENT, FIELD OPERATIONS SUPPORT

SUBJECT:	 Government Mails Section of the Brentwood Processing and Distribution
          Center, Washington, D.C. (Audit Report Number DS-AR-99-003)

This report presents the results of our audit of the Government Mails Section of the
Brentwood Processing and Distribution Center, Washington, D.C. (Project Number
99PA020DS000). This audit was included in our fiscal year 1999 Audit Workload Plan
as a result of a complaint forwarded by Congressman John McHugh, Chairman,
Subcommittee on the Postal Service, Committee on Government Reform and
Oversight. The complaint, in part, alleged problems with the misdirection and delay of
mail handled by the Government Mails Section.

Our audit confirmed that problems do exist with the misdirection and delay of mail at the
Government Mails Section. The major reasons for the delays and misdirection of mail
are described in the attached report.

We have summarized management’s comments after each recommendation in this
report and have included verbatim comments at Appendix B. Management’s comments
were responsive to the issues and recommendations raised in this report. We
appreciated the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact                 or
me at (703) 248-2300.



Richard Chambers
Assistant Inspector General
  for Performance

Attachment

cc: John E. Potter
    Alan B. Kiel

     John R. Gunnels       

Government Mails Section                                       DS-AR-99-003



                            TABLE OF CONTENTS
Part I

EXECUTIVE SUMMARY                                                  i

Part II

INTRODUCTION

   Background                                                     1

   Objective, Scope, and Methodology                              2


AUDIT RESULTS

   Misdirected Mail                                               3

      Recommendations                                             3

      Management's Comments                                       4

      Evaluation of Management's Comments                         4


   Delayed Mail                                                   6

      Recommendations                                             6
      Management's Comments                                       6

      Evaluation of Management's Comments                         7


   Government Mails Section Overtime Use and Staffing Issues      8

     Recommendations                                              8
     Management's Comments                                        8

     Evaluation of Management's Comments                          8


APPENDIX

   Appendix A - Cost Avoidance Computation Methodology          10 

   Appendix B - Management's Comments                           11 





                                 Restricted Information
Government Mails Section                                                       DS-AR-99-003



                             EXECUTIVE SUMMARY
 Introduction              The Government Mails Section of the Brentwood
                           Processing and Distribution Center (the Center),
                           Washington, D.C., processes and distributes mail to
                           government agencies that have been assigned a unique
                           Zone Improvement Plan (ZIP) Code. We completed an
                           audit to examine allegations forwarded by Congressman
                           John McHugh, Chairman, Subcommittee on the Postal
                           Service, Committee on Government Reform and Oversight,
                           concerning problems with the misdirection and delay of mail
                           at the Government Mails Section. This audit was included
                           in our fiscal year (FY) 1999 Audit Workload Plan.

 Results in Brief          We confirmed that problems did exist with the misdirection
                           and delay of mail at the Government Mails Section.
                           Specifically, we found government agencies were not using
                           assigned unique ZIP Codes and that mail that had an
                           incorrect barcode and/or ZIP Code was not handled
                           according to established policy. Additionally, we found that
                           mail arrived into the Government Mails Section too late to
                           meet processing and delivery requirements. Further, the
                           Government Mails Section incurred $217,226 in overtime
                           and penalty costs between June 20, 1998, and June 18,
                           1999.

 Summary of                We recommend the Vice President, Field Operations
 Recommendations           Support, in conjunction with the Vice President, Customer
                           Relations and Premier and National Account Managers,
                           implement a program to ensure federal agencies exclusively
                           use their official unique ZIP Codes and to ensure that postal
                           employees comply with the established policies and
                           procedures for the identification, isolation, handling,
                           tracking, and prevention of loop mail. In addition, we also
                           recommend that the Center’s operating plan be changed to
                           reflect the critical entry and clearance times required for the
                           Government Mails Section to meet their dispatch and/or
                           delivery times. Further we recommend the Vice President,
                           Field Operations Support, ensure that the Center’s
                           operating plan be periodically reviewed to ensure key
                           elements such as critical entry and clearance times are
                           still valid. Finally, we recommend that the Vice President
                           decline a request to hire 23 additional clerks for the




                                               i
                                 Restricted Information
Government Mails Section                                                      DS-AR-99-003



                           Government Mails Section, and coordinate automating
                           tasks at the Government Mails Section with the addition of a
                           flat sorting machine.

 Summary of                Management agreed with all of our recommendations
 Management’s              except one. Management disagreed with
 Comments                  recommendation 2, stating mail that is correctly addressed
                           to the valid street address of a government agency rather
                           than to their unique ZIP Code is not considered loop mail.
                           Additionally, management felt there was no basis for
                           claiming the $1.1 million cost savings cited in the report.
                           Management’s comments are summarized in the report and
                           the full text is shown in Appendix B.

                           Management’s comments also inquired about the status of
                           other issues raised in the original complaint. Since the
                           issues were outside the scope of this audit, we will provide
                           status in a separate letter.

 Overall Evaluation of     Management’s comments were responsive to the issues
 Management’s              raised in the report. Management proposed an alternative
 Comments                  action to recommendation 2, which should eliminate the
                           reprocessing of government mail. Also, since management
                           had not formally considered or approved the additional
                           staffing, we will not pursue the $1.1 million cost avoidance.




                                              ii
                                 Restricted Information
Government Mails Section	                                                      DS-AR-99-003



                                   INTRODUCTION
 Background 	               In March 1997, we received correspondence from the
                            Honorable John M. McHugh, Chairman, Subcommittee on
                            the Postal Service, Committee on Government Reform and
                            Oversight, written by unidentified postal employees
                            assigned to the Government Mails Section of the Brentwood
                            Processing and Distribution Center (the Center),
                            Washington, D.C. In part, the employees alleged problems
                            with misdirection and delay of mail. Accordingly, we
                            included this audit in our FY 1999 Audit Workload Plan.

                            The Official Mail and Messenger Service, currently known to
                            the Postal Service as the Government Mails Section,
                            provides the delivery and collection of mail to government
                            agencies. The Government Mails Section is located in the
                            Brentwood Processing and Distribution Center (the Center).
                            In the late 1980s, the Government Mails Section was
                            reorganized to reduce manual sorting processes and to
                            implement automation to expedite mail processing and
                            distribution.

                            Government agencies are assigned unique ZIP Codes by
                            the Postal Service for a specific location. A unique ZIP
                            Code is a 5-digit ZIP Code that is assigned exclusively to a
                            single firm, government agency, or equivalent. The
                            Government Mails Section is responsible for processing and
                            delivering mail to government agencies in the Washington,
                            D.C. metropolitan area that have been assigned unique ZIP
                            Codes. Currently there are 206 unique ZIP Codes
                            assigned; however, only 190 are actively used.

                            Management Instruction, “Loop Mail Program,” Number
                            PO-420-1999-1, dated March 31, 1999, establishes policies
                            and procedures for the identification, isolation, handling,
                            tracking, and prevention of loop mail. This instruction
                            requires that distribution/throwback clerks cross out or slash
                            through incorrect ZIP Codes on nonbarcoded as well as
                            barcoded mailpieces. If known, the correct ZIP Codes
                            should be placed on the address side of the mailpiece.

                            Additionally, postal managers at delivery offices, stations,
                            and branches must periodically monitor the loop mail case
                            and develop reports that measure the amount of loop mail
                            by type. Stations and/or branches return this mail to the
                            Center for processing. In areas where high concentrations


                                               1
                                  Restricted Information
Government Mails Section                                                      DS-AR-99-003



                           of loop mail exist, using reports and performing diagnostic
                           testing will minimize loop mail volumes.

 Objective, Scope, and     Our objective was to examine allegations regarding
 Methodology               misdirection and delay of mail at the Government Mails
                           Section and the use of employee overtime. To accomplish
                           our objective, we defined the universe of government
                           agencies that have their mail processed and delivered
                           through the Government Mails Section. We interviewed
                           Government Mails Section employees, union and
                           management officials, and government agency
                           representatives. We randomly sampled overtime and
                           various management reports processed between June 1998
                           and June 1999. We also reviewed documents related to
                           delayed mail, customer complaints, and other relevant
                           issues.

                           This audit was conducted from May through August 1999, in
                           accordance with generally accepted government auditing
                           standards and included such tests of internal controls as we
                           considered necessary under the circumstances. We
                           discussed our conclusions and observations with
                           appropriate management officials and included their
                           comments, where appropriate.




                                              2
                                 Restricted Information
Government Mails Section	                                                                     DS-AR-99-003



                                          AUDIT RESULTS
                                 We confirmed that problems did exist with the misdirection
                                 and delay of mail at the Government Mails Section located at
                                 Brentwood Processing and Distribution Center, Washington,
                                 D.C.

    Misdirected Mail 	           Our audit confirmed problems with the misdirection of mail at
                                 the Government Mails Section. Specifically, we found:

                                 •	 Government agencies were not using assigned unique
                                    ZIP Codes.

                                 •	 Mail that had an incorrect barcode and/or ZIP Code was
                                    not handled according to established policy.

                                 Unique ZIP Codes were not being used as assigned. Our
                                 discussions with 20 government agencies revealed that
                                 6 used their physical street location ZIP Code instead of their
                                 assigned unique ZIP Code. We further determined that the
                                 mailing addresses provided on the World Wide Web sites for
                                 12 agencies contained different ZIP Codes than the unique
                                 ZIP Codes assigned. This occurred because postal
                                 management did not ensure that government agencies were
                                 utilizing their assigned unique ZIP Codes as intended.
                                 Therefore, government mail may be misdirected.

                                 Additionally, postal employees did not always cross out
                                 incorrect ZIP Codes or barcodes as required on missent mail
                                 resulting in “loop mail.”1 This occurred because postal
                                 management did not ensure that postal employees complied
                                 with established policies and procedures to identify, isolate,
                                 handle, track, and prevent loop mail. This missent mail
                                 should be identified and returned to the processing center to
                                 be incorporated into the appropriate mailstream.

    Recommendations 	            We offer the following recommendations:

                                 The Vice President, Field Operations Support, should:

                                 1.	 In conjunction with the Vice President, Customer
                                     Relations and Premier and National Account Managers,
                                     implement a program to ensure federal agencies
                                     exclusively use their official unique ZIP Codes.
1
 Loop Mail is mail that is incorrectly barcoded and/or ZIP coded which is discovered at a destination for
which it is not addressed.

                                                     3
                                        Restricted Information
Government Mails Section	                                                        DS-AR-99-003




 Management’s               Management agreed with the recommendation.
 Comments                   Management pointed out however, that conflicting needs
                            complicate the issues surrounding how mail is addressed to
                            government agencies. They stated that the agencies’ use
                            of street addresses on WEB or telephone directory pages
                            make it easier for their constituents to find the agencies’
                            offices, but also leads to the use of street addresses on
                            correspondence sent to the agencies. They noted that the
                            Postal Service has no means to encourage individual
                            originating mailers to use the unique ZIP Code mailing
                            addresses.

                            In response to the recommendation, management stated
                            that the Capital Performance Cluster will expand their efforts
                            with the Government Mails Postal Customer Council to
                            more aggressively inform government agencies regarding
                            the use of their unique ZIP Codes. In addition, they plan to
                            develop more efficient procedures that are sensitive to the
                            needs of those government agencies for handling mail sent
                            to street addresses. Management plans to work with the
                            government agencies to convert to normal business delivery
                            procedures using the agency’s street address if so
                            requested. However, management noted that the agency
                            would lose its unique ZIP Code address, under those
                            circumstances.

 Evaluation of              Management’s planned action is responsive to the 

 Management’s               recommendation. 

 Comments 


                            2.	 Ensure that postal employees comply with the
                                established policies and procedures for the
                                identification, isolation, handling, tracking, and
                                prevention of loop mail.

 Management’s 	             Management did not agree with the recommendation.
 Comments 	                 Management stated mail that is correctly addressed to the
                            valid street address of a government agency rather than to
                            their unique ZIP Code is not considered loop mail.
                            Management noted that loop mail procedures are not the
                            most effective way to handle mail addressed to government
                            agencies’ street addresses. As an alternative action,
                            management plans to initiate normal delivery of that mail at
                            the agency’s office as addressed.

                                              4
                                 Restricted Information
Government Mails Section                                                     DS-AR-99-003



                           Where this does not meet the needs of the agency because
                           of security or other issues, they plan to instruct the station
                           responsible for the street address to prepare the mail as for
                           delivery and return it labeled for the agency to Government
                           Mails for subsequent delivery. Unlike the loop mail
                           procedure, this will eliminate reprocessing the mail manually
                           at the Processing and Distribution Center and in the
                           Government Mails section.

 Evaluation of             Although management did not agree with the
 Management’s              recommendation, their proposed alternate action is
 Comments                  responsive to the issue. Management plans to initiate
                           normal delivery of mail to an agency’s street address, which
                           eliminates the reprocessing of government mail. This
                           delivery alternative satisfies the intent of our
                           recommendation.




                                             5
                                Restricted Information
Government Mails Section	                                                                          DS-AR-99-003




    Delayed Mail                   We confirmed that problems did exist with the delay of mail
                                   at the Government Mails Section located at the Brentwood
                                   Processing and Distribution Center (the Center) in
                                   Washington, D.C. Specifically, we found that mail arrived
                                   into the Government Mails Section too late to meet
                                   processing and delivery requirements resulting in excessive
                                   use of overtime. Also, 9 of the 20 government agencies
                                   contacted stated they had problems with delayed mail during
                                   the past year. This occurred because the Center’s operating
                                   plan (critical entry2 and clearance times3) did not match
                                   delivery requirements for the Government Mails Section.
                                   Revising the Center’s current operating plan to reflect an
                                   earlier mail processing time for the Government Mails
                                   Section should reduce the amount of overtime hours.

                                   Additionally, Government Mails Section officials could not
                                   monitor daily volumes of mail processed through the section
                                   because government mail was not being reported correctly in
                                   the performance reporting system for the Center. However,
                                   in June 1999, the Center began to correct reporting
                                   deficiencies with the Daily Mail Condition Reports.4 These
                                   reports identify and allow managers to monitor problems in
                                   mail processing within a postal facility and to use resources
                                   necessary to meet the fluctuating mail volume and service
                                   commitments.

    Recommendations 	              We offer the following recommendations:

                                   The Vice President, Field Operations Support, should:

                                   3. Revise the Center’s operating plan to reflect the critical
                                      entry and clearance times required for the Government
                                      Mails Section to meet their dispatch and/or delivery
                                      times.

    Management's 	                 Management agreed with the recommendation and stated
    Comments 	                     that the Capital Performance Cluster has revised the
                                   operating plan for the Washington, DC, Processing and
                                   Distribution Center as it relates to the Government Mails
                                   section. As revised, the critical entry time and the clearance

2
  Critical entry time is the latest time that committed mail must be available to an operation if that mail is to 

complete the operation by its planned clearance time. 

3
  Clearance time is the latest time committed mail is planned to complete an operation if that mail is to 

make the proper planned dispatch or delivery.

4
  Since management initiated action during our audit, no recommendation is provided. 


                                                        6
                                           Restricted Information
Government Mails Section	                                                      DS-AR-99-003



                            time for the Government Mails section is 0630 and 0800
                            respectively. Management submitted the revisions to the
                            Capital Metro Area for approval.

 Evaluation of              Management’s planned action is responsive to our

 Management's               recommendation. 

 Comments 


                            4. Ensure that the operating plan for the Center is reviewed
                               periodically to ensure key elements such as critical entry
                               and clearance times are still valid.

 Management's 	             Management agreed with the recommendation and stated
 Comments 	                 that the Capital Performance Cluster will utilize the existing
                            procedures established by headquarters to review operating
                            plans and submit revisions to the area for approval.

 Evaluation of              Management’s planned action is responsive to our

 Management's               recommendation. 

 Comments 





                                               7
                                  Restricted Information
Government Mails Section	                                                                           DS-AR-99-003




    Government Mails               We reviewed Scheduling and Staffing Summary reports and
    Section Overtime Use           Weekly Overtime Use reports and conducted interviews to
    and Staffing Issues            determine the level of overtime usage and staffing plans
                                   within the Government Mails Section. We noted that for the
                                   25 weeks5 reviewed, the Government Mails Section incurred
                                   $217,226 in overtime and penalty costs due to heavy mail
                                   volume and staff shortages. We also noted that a request
                                   was made to the Acting Postmaster to hire 23 additional full-
                                   time employees. We believe that if the Government Mails
                                   Section were to acquire a flat sorting machine at no cost6
                                   and not hire the additional staff, they would realize a total
                                   cost avoidance of at least $1.1 million annually. See
                                   appendix A for computational methodology details.

    Recommendations 	              We offer the following recommendations:

                                   The Vice President, Field Operations Support, should:

                                   5. Decline the request to hire additional staff and increase
                                      automation at the Government Mails Section by adding a
                                      flat sorting machine.

    Management's                   Management concurred with our recommendation to decline
    Comments                       the request to hire 23 additional clerks and to possibly
                                   provide the Government Mails Section with a flat sorting
                                   machine. However, they expressed concern about our basis
                                   for estimating a cost avoidance in our draft report, since the
                                   floor supervisors' consideration of staffing needs does not
                                   constitute submission or approval of such a request. Also,
                                   they commented that the amount of overtime Government
                                   Mail employees worked, equated to only a 5.4 percent
                                   overtime rate, which they viewed as very efficient. Further,
                                   they clarified the availability of a flat sorting machine, and
                                   indicated that recent flat sorting machine upgrades and
                                   operational enhancements may allow for the Government
                                   Mails Section flats to be absorbed into the existing flat
                                   environment as an alternative.

    Evaluation of                  Management’s comments are responsive to the
    Management's                   recommendation. With regard to the cost avoidance,
    Comments                       although a formal memorandum requesting the 23 additional
                                   staff was not prepared, we obtained evidence during the
5
 June 20, 1998 through June 18, 1999.
6
 A flat sorting machine can be obtained from excess postal equipment according to the District Manager, Capital
District.

                                                        8
                                           Restricted Information
Government Mails Section                                                     DS-AR-99-003



                           audit that a verbal request had been made. We also
                           obtained the Scheduling and Staffing Summary used by the
                           Government Mails Manager in determining the additional
                           staffing needs. We were also informed that this
                           documentation was provided to the Acting Postmaster in
                           support of the verbal request.

                           Although we believe the recommendation was appropriate,
                           we will not pursue the $1.1 million cost avoidance, since the
                           Government Mails Manager staffing needs were not formally
                           considered or approved.




                                              9
                                 Restricted Information
Government Mails Section                                                       DS-AR-99-003



                       Cost Avoidance Computation Methodology



We randomly selected the 25 weeks between June 20, 1998 and June 18, 1999. With
95 percent confidence we project an average weekly overtime hours of 317.2 hours
plus/minus 27 hours.

During interviews with postal management, we were informed that the production
capacity of a multiposition flat sorting machine is equivalent to approximately nine full-
time employees. We verified the capacity of a multiposition flat sorting machine to
determine whether management’s assertion was reasonable. Accordingly, a single flat
sorting machine could handle a production volume equivalent to the annual overtime
workload. Labor costs for processing mail can be reduced through automation that
costs $3.63/per thousand vs. manual processing costs of $47.03/per thousand.

Assuming a 40-hour week for full time employees, we project a need for between seven
and nine clerks. Using the 1999 average hourly rate for clerks and a derived hourly rate
for benefits, we projected the total annual cost for a single clerk to be $49,379.
Therefore the annual cost of hiring 23 full time employees would be about $1,135,722.




                                               10                                Appendix A
                                  Restricted Information
Government Mails Section                            DS-AR-99-003




                                        11           Appendix B
                           Restricted Information
Government Mails Section                                                                          DS-AR-99-003




             *




 * Note: Per verbal conversation with Jeff Lewis, Manager, Operations Support on September 28, 1999, this
 sentence should read: The loop mail procedures are not the most effective way to handle mail addressed to
 government agencies’ street addresses.




                                                       12                                           Appendix B
                                          Restricted Information
Government Mails Section                            DS-AR-99-003




                                        13           Appendix B
                           Restricted Information
Government Mails Section                            DS-AR-99-003




                                        14           Appendix B
                           Restricted Information
Government Mails Section                            DS-AR-99-003




 Major Contributors to
 This Report




                                        15
                           Restricted Information
